Financial Section



                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                    Independent Auditors’ Report

Secretary and Inspector General
U.S. Department of Labor:


We have audited the accompanying consolidated balance sheet of the U.S. Department of Labor (DOL) as of
September 30, 2006, and the related consolidated statements of net cost, changes in net position, financing, and
custodial activity, and the combined statement of budgetary resources for the year then ended; and the statement of
social insurance as of September 30, 2006 (hereinafter referred to as “consolidated financial statements”). The
objective of our audit was to express an opinion on the fair presentation of these consolidated financial statements. In
connection with our fiscal year 2006 audit, we also considered DOL’s internal controls over financial reporting,
Required Supplementary Stewardship Information, and performance measures, and tested DOL’s compliance with
certain provisions of applicable laws, regulations, contracts, and grant agreements that could have a direct and
material effect on these consolidated financial statements. The accompanying consolidated financial statements of
DOL as of September 30, 2005, were audited by other auditors whose report thereon, dated November 10, 2005,
expressed an unqualified opinion on those consolidated financial statements, except for the statement of social
insurance which they did not audit.

We have also examined DOL’s compliance with section 803a of the Federal Financial Management Improvement
Act of 1996 (FFMIA) during the year ended September 30, 2006.

SUMMARY
As stated in our opinion on the consolidated financial statements, we concluded that DOL’s consolidated financial
statements as of and for the year ended September 30, 2006, are presented fairly, in all material respects, in
conformity with U.S. generally accepted accounting principles.

As discussed in our opinion on the consolidated financial statements, in fiscal year 2006, DOL adopted new
accounting and reporting requirements for earmarked funds and social insurance programs.

Our consideration of internal controls over financial reporting, Required Supplementary Stewardship Information,
and performance measures resulted in the following conditions being identified as reportable conditions:

        1.    Lack of Strong Application Controls over Access to and Protection of Financial Information
        2.    Lack of Strong Logical Security Controls to Secure DOL’s Networks and Information
        3.    Weaknesses Noted over Property, Plant, and Equipment
        4.    Weaknesses Noted over Grants
        5.    Weaknesses Noted in the Change Control Process for a Benefits System
        6.    Weaknesses Noted in Federal Employees Compensation Act Accounting and Financial Reporting
        7.    Lack of Segregation of Duties over Journal Entries
        8.    Weaknesses Noted over Payroll Accounting
        9.    Weaknesses Noted over Budgetary Accounting
        10.   Weaknesses Noted over Custodial Activities

However, none of the reportable conditions are believed to be material weaknesses.


                                       KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                       member firm of KPMG International, a Swiss cooperative.




152    United States Department of Labor
                                                                                            Independent Auditors’ Report

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant agreements
disclosed the following instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards, issued by the Comptroller General of the United States, and Office of Management
and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.

        1. Federal Information Security Management Act (Electronic Government Act of 2002)
        2. Single Audit Act Amendments of 1996
        3. Debt Collection Improvement Act of 1996

As stated in our opinion on DOL’s compliance with FFMIA, we concluded that DOL did not comply, in all material
respects, with the Federal financial management systems requirements of FFMIA for the year ended September 30,
2006, but did comply, in all material respects, with the applicable Federal accounting standards and the United States
Government Standard General Ledger requirements.

The following sections discuss our opinion on DOL’s consolidated financial statements; our consideration of DOL’s
internal controls over financial reporting, Required Supplementary Stewardship Information, and performance
measures; our tests of DOL’s compliance with certain provisions of applicable laws, regulations, contracts, and grant
agreements; our opinion on the DOL’s compliance with FFMIA; and management’s and our responsibilities.

OPINION ON THE CONSOLIDATED FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheet of the U.S. Department of Labor as of September 30,
2006, and the related consolidated statements of net cost, changes in net position, financing, and custodial activity,
and the combined statement of budgetary resources for the year then ended; and the statement of social insurance as
of September 30, 2006. The accompanying statements of social insurance as of September 30, 2002 through 2005
were not audited by us and, accordingly, we do not express an opinion on them. The accompanying consolidated
financial statements of the U.S. Department of Labor as of September 30, 2005, were audited by other auditors
whose report thereon, dated November 10, 2005, expressed an unqualified opinion on those financial statements,
except for the statement of social insurance, which they did not audit.

In our opinion, the consolidated financial statements referred to above present fairly, in all material respects, the
financial position of the U.S. Department of Labor as of September 30, 2006, and its net costs, changes in net
position, budgetary resources, reconciliation of net costs to budgetary obligations, and custodial activity for the year
then ended, and the financial condition of its social insurance program as of September 30, 2006, in conformity with
U.S. generally accepted accounting principles.

As discussed in Note 1.A to the consolidated financial statements, DOL changed its method of reporting earmarked
funds to adopt the provisions of the Federal Accounting Standards Advisory Board’s Statement of Federal Financial
Accounting Standards (SFFAS) No. 27, Identifying and Reporting Earmarked Funds, effective October 1, 2005. In
addition, as discussed in Note 1.W to the consolidated financial statements, DOL changed its method of reporting its
social insurance program to adopt the provisions of SFFAS No. 25, Reclassification of Stewardship Responsibilities
and Eliminating the Current Services Assessment, and No. 26, Presentation of Significant Assumptions for the
Statement of Social Insurance: Amending SFFAS 25, effective October 1, 2005.

As discussed in Note 1.W to the consolidated financial statements, the statements of social insurance present the
actuarial present value of DOL’s estimated future income to be received from or on behalf of the participants and
estimated future expenditures to be paid to or on behalf of participants during a projection period sufficient to
illustrate long-term sustainability of the social insurance program. In preparing the statements of social insurance,
management considers and selects assumptions and data that it believes provide a reasonable basis for the assertions
in the statements. However, because of the large number of factors that affect the statements of social insurance and
the fact that future events and circumstances cannot be known with certainty, there will be differences between the
estimates in the statements of social insurance and the actual results, and those differences may be material.




                                                                    FY 2006 Performance and Accountability Report 153
Financial Section

The information in the Management’s Discussion and Analysis, Required Supplementary Stewardship Information,
and Required Supplementary Information sections is not a required part of the consolidated financial statements, but
is supplementary information required by U.S. generally accepted accounting principles and OMB Circular
No. A-136, Financial Reporting Requirements. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation of this information.
However, we did not audit this information and, accordingly, we express no opinion on it. As a result of such limited
procedures, we believe that the Required Supplementary Stewardship Information for Employment and Training
Administration and Job Corps omits certain output and outcome measures required by U.S. generally accepted
accounting principles.

The information in the Secretary’s Message, Performance Section, and Appendices are presented for purposes of
additional analysis and are not required as part of the consolidated financial statements. This information has not
been subjected to auditing procedures and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING
Our consideration of internal control over financial reporting would not necessarily disclose all matters in the internal
control over financial reporting that might be reportable conditions. Under standards issued by the American Institute
of Certified Public Accountants, reportable conditions are matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control over financial reporting that, in our judgment, could
adversely affect DOL’s ability to record, process, summarize, and report financial data consistent with the assertions
by management in the consolidated financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or more of the internal control
components does not reduce to a relatively low level the risk that misstatements caused by error or fraud, in amounts
that would be material in relation to the consolidated financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned functions. Because
of inherent limitations in internal control, misstatements due to error or fraud may nevertheless occur and not be
detected.

In our fiscal year 2006 audit, we noted certain matters, discussed in Exhibit I, involving the internal control over
financial reporting and its operation that we consider to be reportable conditions. However, none of the reportable
conditions are believed to be material weaknesses.

We noted certain additional matters in internal control over financial reporting and its operation that we will report to
management of DOL in a separate letter.

INTERNAL CONTROLS OVER REQUIRED SUPPLEMENTARY STEWARDSHIP
INFORMATION AND PERFORMANCE MEASURES
Under OMB Bulletin No. 06-03, the definition of material weaknesses is extended to other controls as follows.
Material weaknesses are reportable conditions in which the design or operation of one or more of the internal control
components does not reduce to a relatively low level the risk that misstatements caused by error or fraud, in amounts
that would be material in relation to the Required Supplementary Stewardship Information or material to a
performance measure or aggregation of related performance measures, may occur and not be detected within a timely
period by employees in the normal course of performing their assigned functions. Because of inherent limitations in
internal control, misstatements due to error or fraud may nevertheless occur and not be detected.

Our consideration of the internal control over the Required Supplementary Stewardship Information and the design
and operation of internal control over the existence and completeness assertions related to key performance measures
would not necessarily disclose all matters involving the internal control and its operation related to Required
Supplementary Stewardship Information or the design and operation of the internal control over the existence and
completeness assertions related to key performance measures that might be reportable conditions.

In our fiscal year 2006 audit, we noted no matters involving the internal control and its operation related to Required
Supplementary Stewardship Information that we considered to be material weaknesses as defined above.

154   United States Department of Labor
                                                                                            Independent Auditors’ Report

Further, in our fiscal year 2006 audit, we noted no matters involving the design and operation of the internal control
over the existence and completeness assertions related to key performance measures that we considered to be
material weaknesses as defined above.

COMPLIANCE AND OTHER MATTERS
Our tests of compliance with certain provisions of laws, regulations, contracts, and grant agreements, as described in
the Responsibilities section of this report, exclusive of those referred to in FFMIA, disclosed three instances of
noncompliance or other matters that are required to be reported under Government Auditing Standards or OMB
Bulletin No. 06-03, and are described in Exhibit II.

The results of our tests of compliance with certain provisions of other laws and regulations, exclusive of those
referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards or OMB Bulletin No. 06-03.

Other Matter. DOL is currently reviewing three incidents regarding potential violations of the Anti-deficiency Act.
As of the date of this report, no final noncompliance determination has been made for any of the three incidents.

We noted certain additional matters that we will report to management of DOL in a separate letter.

OPINION ON COMPLIANCE WITH FFMIA
The Department represented that in accordance with the provisions and requirements of FFMIA, the Secretary of
Labor determined that the Department of Labor’s financial management systems are in substantial compliance with
FFMIA.

We have examined the U.S. Department of Labor’s compliance with section 803a of the Federal Financial
Management Improvement Act of 1996 during the fiscal year ended September 30, 2006. Under section 803a of
FFMIA, DOL’s financial management systems are required to substantially comply with (1) Federal financial
management systems requirements, (2) applicable Federal accounting standards, and (3) the United States
Government Standard General Ledger at the transaction level. We used OMB’s Revised Implementation Guidance
for the Federal Financial Management Improvement Act, dated January 4, 2001, to determine compliance.

Our examination disclosed the following material noncompliance with FFMIA section 803a applicable to the U.S.
Department of Labor during the fiscal year ended September 30, 2006.

DOL’s financial management systems do not comply substantially with Federal financial management system
requirements because of certain weaknesses in DOL’s general computer access controls, application access controls,
and related manual controls. These matters are further described in Exhibit II, Finding No. 4.

In our opinion, except for the material noncompliance described in the preceding paragraph, the U.S. Department of
Labor complied, in all material respects, with the aforementioned requirements during the fiscal year ended
September 30, 2006.

                                                      * * * * *

RESPONSIBILITIES
Management’s Responsibilities. The United States Code, Title 31, Sections 3515 and 9106 require agencies to
report annually to Congress on their financial status and any other information needed to fairly present their financial
position and results of operations. To meet these reporting requirements, DOL prepares and submits financial
statements in accordance with OMB Circular No. A-136.

Management is responsible for the consolidated financial statements, including:

    •   Preparing the consolidated financial statements in conformity with U.S. generally accepted accounting
        principles;

                                                                    FY 2006 Performance and Accountability Report 155
Financial Section

      •    Preparing the Management’s Discussion and Analysis (including the performance measures), Required
           Supplementary Information, and Required Supplementary Stewardship Information;
      •    Establishing and maintaining effective internal control; and
      •    Complying with laws, regulations, contracts, and grant agreements applicable to DOL, including FFMIA.

In fulfilling this responsibility, management is required to make estimates and judgments to assess the expected
benefits and related costs of internal control policies.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2006 consolidated financial
statements of DOL based on our audit. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin No. 06-03. Those
standards and OMB Bulletin No. 06-03 require that we plan and perform the audit to obtain reasonable assurance
about whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are appropriate
in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of DOL’s internal control
over financial reporting. Accordingly, we express no such opinion.

An audit also includes:

      •    Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated financial
           statements;
      •    Assessing the accounting principles used and significant estimates made by management; and
      •    Evaluating the overall consolidated financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2006 audit, we considered DOL’s internal control over financial reporting
by obtaining an understanding of DOL’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls in order to determine our auditing procedures for
the purpose of expressing our opinion on the consolidated financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in Government Auditing Standards and OMB
Bulletin No. 06-03. We did not test all internal controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was not to provide an opinion on
DOL’s internal control over financial reporting. Consequently, we do not provide an opinion thereon.

As required by OMB Bulletin No. 06-03, in our fiscal year 2006 audit, we considered DOL’s internal control over
the Required Supplementary Stewardship Information by obtaining an understanding of the DOL’s internal control,
determining whether these internal controls had been placed in operation, assessing control risk, and performing tests
of controls. We limited our testing to those controls necessary to test and report on the internal control over Required
Supplementary Stewardship Information in accordance with OMB Bulletin No. 06-03. However, our procedures
were not designed to provide an opinion on internal control over the Required Supplementary Stewardship
Information and, accordingly, we do not provide an opinion thereon.

As further required by OMB Bulletin No. 06-03, in our fiscal year 2006 audit, with respect to internal control related
to performance measures determined by management to be key and reported in the Management’s Discussion and
Analysis and Performance Section, we obtained an understanding of the design of internal controls relating to the
existence and completeness assertions and determined whether these internal controls had been placed in operation.
We limited our testing to those controls necessary to test and report on the internal control over key performance
measures in accordance with OMB Bulletin No. 06-03. However, our procedures were not designed to provide an
opinion on internal control over reported performance measures and, accordingly, we do not provide an opinion
thereon.




156       United States Department of Labor
                                                                                        Independent Auditors’ Report

As part of obtaining reasonable assurance about whether DOL’s fiscal year 2006 consolidated financial statements
are free of material misstatement, we performed tests of DOL’s compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and material effect on
the determination of the consolidated financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 06-03. We limited our tests of compliance to the provisions described in
the preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant agreements
applicable to DOL. However, providing an opinion on compliance with laws, regulations, contracts, and grant
agreements was not an objective of our audit and, accordingly, we do not express such an opinion.

Our responsibility also included expressing an opinion on DOL’s fiscal year 2006 compliance with FFMIA section
803a requirements, based on our examination. Our examination was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants and the standards applicable to
attestation engagements contained in Government Auditing Standards issued by the Comptroller General of the
United States and, accordingly, included examining, on a test basis, evidence about DOL’s compliance with the
requirements of FFMIA section 803a and performing such other procedures as we considered necessary in the
circumstances. We believe that our examination provides a reasonable basis for our opinion. Our examination does
not provide a legal determination on DOL’s compliance with specified requirements.

RESTRICTED USE
This report is intended solely for the information and use of DOL’s management, DOL’s Office of Inspector General,
OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.




November 13, 2006




                                                                FY 2006 Performance and Accountability Report   157
Financial Section


1. Lack of Strong Application Controls Over Access to and Protection of Financial Information
      In fiscal years (FY) 2004 and 2005, the Office of Inspector General (OIG) reported consistent weaknesses across
      the Department of Labor’s (DOL) applications tested in the following application control areas:

          •   Identification and documentation of supporting environments, such as process flow documentation and
              mapping;
          •   Application password settings, such as passwords that do not adhere to complexity requirements;
          •   User access, such as incomplete access request and termination forms;
          •   Lack of application segregation of duties policies or enforcement of segregation of duties policies;
          •   Periodic user account review and reauthorization, including lack of user authorization, or incomplete
              authorization documentation;
          •   Audit trails, such as lack of monitoring of sensitive application functions and incomplete audit logs; and
          •   Controls over output to other applications, including reconciliation of control totals and record counts.

      The OIG recommended that management:

          •   Verify that specific security weaknesses identified during the audits and communicated to DOL agencies
              are included in each individual agency’s Plan of Action and Milestones (POA&M), and that appropriate
              and timely corrective action is taken on the identified weaknesses; and
          •   Coordinate efforts among the DOL agencies to develop and/or enforce procedures and controls to
              address systemic application control weaknesses in current financial management systems.

      From current year testing, we found the continued presence of numerous weaknesses in the information
      protection controls over applications. We identified 43 prior year recommendations, 35 from the Office of the
      Chief Financial Officer (OCFO), 6 from the Employment and Training Administration (ETA), and 2 from the
      Employment Standards Administration (ESA), related to application controls that have not been corrected. The
      specific nature of these weaknesses, their causes, and the systems impacted by them have been separately
      communicated to management.

      These findings are a result of a breakdown in the implementation and monitoring of Departmental processes and
      procedures for application controls. These application control weaknesses could lead to users with inappropriate
      access to financial systems; inefficient processes; lack of completeness, accuracy, or integrity of financial data;
      and/or the lack of detection of unusual activity within financial systems. In addition, as a result of these
      weaknesses, DOL is not in full compliance with the Federal Information Security Management Act (FISMA)
      passed as part of the Electronic Government Act of 2002.

      Management believes that it has made substantial progress during FY 2006 to strengthen application security
      controls in response to the OIG’s prior year recommendations. Management also believes that its financial
      system, the Department of Labor Accounting and Related Systems (DOLAR$) has sufficient compensating
      controls to address the deficiencies identified by the OIG.

2. Lack of Strong Logical Security Controls to Secure DOL’s Networks and Information
      Since FY 2001, the OIG identified and reported continuing weaknesses with DOL’s technical security standards
      and policies; access controls; and segregation of duties. The OIG recommended that management:

          •   Verify that specific security weaknesses identified during the audits are communicated to DOL agencies
              and included in each individual agency’s POA&M, and that appropriate and timely corrective action is
              taken on the identified weaknesses; and
          •   Coordinate efforts among the DOL agencies to develop and/or enforce procedures and controls to
              address logical security control weaknesses on current financial management systems.




158     United States Department of Labor
                                                                                          Independent Auditors’ Report
                                                                                                Reportable Conditions
                                                                                                             Exhibit I


   DOL continues to lack strong logical security controls to secure its networks and information. Current year
   testing showed that improvements are still needed in the following areas:

       •   Technical security standards and policies need to be updated and implemented to include stronger logical
           security controls. Specifically, patches need to be applied to systems in a timely manner, unnecessary
           services need to be disabled, and access to sensitive files and directories needs to be restricted.
       •   Segregation of duties policies need to be created and enforced for general support systems of financial
           applications.
       •   Access controls need to be improved concerning account management, passwords, and audit log reviews.

   We identified 55 prior year recommendations (7 related to the OCFO, 12 related to ETA, 23 related to ESA, and
   13 related to the Office of the Assistant Secretary for Administration and Management (OASAM)) addressing
   logical security controls that have not been corrected. Additionally, 24 new recommendations related to logical
   security controls were issued in FY 2006 (8 related to ETA, 6 related to ESA, and 10 related to OASAM). The
   specific nature of these weaknesses, their causes, and the systems impacted by them have been separately
   communicated to management.

   These findings are a result of a breakdown in the implementation and monitoring of Departmental processes and
   procedures for logical security controls. These logical security control weaknesses could lead users to gain
   unauthorized access to the agency applications and data, and allow users to potentially modify or disclose agency
   data. Additionally, individuals who have the ability to perform incompatible job duties could perform fraudulent,
   malicious, or accidental actions that could result in unauthorized access, disclosure, and/or modification of DOL
   data. As a result of these weaknesses, DOL is not in full compliance with FISMA.

   Management believes it has made substantial progress to improve its logical security controls and plans to
   implement additional corrective actions to address remaining recommendations in FY 2007. Management also
   believes compensating controls within DOLAR$ address the weaknesses identified related to logical security
   controls.

3. Weaknesses Noted Over Property, Plant and Equipment
   DOL did not consistently implement or follow policies and procedures designed to ensure that property, plant
   and equipment (PP&E) balances, including construction-in-progress, are stated in accordance with Federal
   accounting standards.

   Internal-Use Software
   In FY 2005, the OIG identified that DOL has not capitalized all project costs, such as (1) direct salary and fringe
   benefit costs of Federal employees involved, and (2) related indirect costs such as overhead, rent, and travel, in
   accordance with Statement of Federal Financial Accounting Standard (SFFAS) No. 10, Accounting for Internal
   Use Software, for all of its internal-use software. The OIG recommended the OCFO again notify DOL agencies
   of their requirements to account for costs related to internal-use software and monitor to ensure they properly
   account for these costs in accordance with Federal and departmental requirements.

   During FY 2006, the OCFO re-issued relevant guidance to the agencies and conducted a meeting with the
   agencies. Although the OCFO has informally been communicating with the agencies to monitor the
   implementation of this guidance, no documentation exists to support this monitoring and the OCFO did not
   maintain a listing of internal use software projects in development. In addition, no one in the OCFO has been
   designated to be responsible for DOL’s internal use software accounting and reporting.

   We also noted that although the guidance issued discusses transaction codes used to record related indirect costs,
   the guidance does not provide detailed enough instructions on how indirect costs related to internal use software
   should be captured, calculated, and documented. Additionally, the OCFO has not developed an analysis to
   support its position that the amount of indirect costs associated with the development of internal-use software is
   not material to the financial statements.


                                                                  FY 2006 Performance and Accountability Report   159
Financial Section


      In addition to the open prior year recommendation, we recommend that management designate an official to be
      responsible for internal-use software accounting and reporting and to perform certain procedures in this role.

      Management believes it made substantial progress to capitalize internal use software in response to the OIG’s
      previous recommendations. In FY 2006, management provided guidance and assistance, as well as monitored
      DOL agencies to ensure they properly capitalized internal use software. Management does not agree that DOL
      did not capitalize software development costs. For example, costs for the new accounting system have been
      capitalized, which include federal employee’s salaries, travel, rent, and other costs. Management agreed to
      enhance procedures to compare the internal-use software assets recorded in the Capitalized Asset Tracking and
      Reporting System (CATARS) to the amounts reported by the agencies and will perform, document, and maintain
      an analysis of indirect cost associated with software in development to determine whether these costs are
      material.

      Job Corps Property
      In the FY 2004 and FY 2005 audits, the OIG reported that ETA did not sufficiently use DOL’s subsidiary ledger,
      the CATARS, as a complete property management system in accordance with the CATARS user guide. The OIG
      also found that ETA did not establish sufficient controls to ensure that Job Corps’ capitalized real property was
      accurately reported in CATARS and in the Department of Labor Accounting and Reporting System (DOLAR$),
      DOL’s general ledger system. The OIG recommended that management record property transactions timely and
      make other improvements over accounting for real property.

      In the FY 2006 audit, we noted the recurrence of many issues identified in prior audits, and we identified several
      new property-related issues including untimely transfer of acquisitions from the CATARS holding account,
      incorrect valuation of land transferred from other Federal agencies, and lack of documented analysis supporting
      the rationale for leased Job Corps facilities not being recorded as capital leases and property.

      We believe that many of these issues stem from the fact that the ETA Capitalized Asset Management Officer
      (CAMO) position remained vacant for much of the fiscal year under audit. Additionally, during FY 2006, the Job
      Corps program was transferred from ETA to the Office of the Secretary.

      In addition to the open prior year recommendations, we recommend that management take further actions to
      improve accounting for Job Corps property.

      Management believes it made significant progress towards closing the FY 2004 audit finding by implementing
      procedural changes in the documentation of Job Corps facilities and the recording of substantially completed
      construction projects into CATARS. Management suspended the implementation of many of these changes after
      Hurricane Katrina destroyed the New Orleans and Gulfport Job Corps Centers. Management has initiated a full
      scale review of the Job Corps program policies and procedures, which will result in the implementation of
      corrective action that will bring the recording of Job Corps assets into compliance with Departmental and Federal
      government standards.

      Other Property
      Our FY 2006 audit testing disclosed the following DOL-wide property issues:

          •   Abnormal balances (e.g., items which appear to be below the applicable capitalization threshold and
              negative additions on the PP&E rollforward schedule) exist in CATARS that should be researched and
              resolved.
          •   Reconciliations between CATARS and the general ledger are not performed timely.
          •   Documentation to support certain PP&E-related transactions or balances was not readily available or did
              not exist.
          •   For additions other than construction-in-progress, we noted 5 instances where an obligating document
              was signed by an unauthorized person, and 1 instance where the Contracting Officer signed an obligating
              document in excess of the officer’s warrant authority.
          •   We identified 12 capitalized PP&E additions for which the unit cost was below the capitalization
              threshold.



160     United States Department of Labor
                                                                                           Independent Auditors’ Report
                                                                                                 Reportable Conditions
                                                                                                              Exhibit I


       •   We noted 6 capitalized items that represented costs incurred after the software was placed in service and
           were not software enhancements. These costs should have been expensed in accordance with U.S.
           generally accepted accounting principles.
       •   We identified 5 items related to software that were capitalized based on obligations rather than costs.
       •   Physical inventories are not being adequately performed and documented. Of the 1,763 physical
           inventory reports we requested, 1,485 were not provided to us. In addition, 30 of the reports we reviewed
           were not certified by the Accountable Property Officer (APO).

   In addition, we tested a DOL-wide statistical sample of 200 assets to verify the assets existed and were in usable
   condition. For 40 of the 200 items, DOL could not provide timely and adequate evidence of the asset’s existence
   and use. For 5 of the 200 items, the evidence provided indicated the asset had been transferred or disposed of,
   and for 9 of the 200 items, the evidence provided indicated the asset was no longer in usable condition. These 54
   errors noted represented assets with a total cost of $21,315,130 and accumulated depreciation of $14,832,034.
   When projected to the entire population of assets, the projected misstatement is $81,527,396 of cost and
   $66,594,051 of accumulated depreciation. These errors were partially caused by DOL’s inability to readily
   identify an asset based on the inventory number, serial number, or description in CATARS. We noted that the
   inventory numbers and serial numbers on the assets were not consistently recorded in CATARS. In addition,
   some errors resulted from the inventory certification process not adequately identifying assets that no longer exist
   or that are no longer in usable condition. DOL management considered the identified differences to be
   immaterial to the FY 2006 consolidated financial statements, and as such, these differences were included in the
   Summary of Unadjusted Audit Differences attached to management’s FY 2006 representation letter.

   We recommend that management develop and implement policies and procedures, or enhance and enforce
   existing policies and procedures, related to abnormal balances in CATARS, reconciliations between CATARS
   and the general ledger, proper recording of acquired and disposed assets in CATARS, document maintenance
   and retention, obligation approvals, proper capitalization, and physical inventories.

   Management is ensuring that the required reconciliation procedures are now being performed and will strengthen
   procedures to ensure that assets are being recorded with the proper inventory number and proper serial number in
   CATARS, and that records of assets are being maintained such that each asset can be readily identified and
   located. Instructions will be provided so that during physical inventories, assets that are no longer in usable
   condition are identified and properly disposed of in CATARS.

4. Weaknesses Noted Over Grants
   Grant Accrual Preparation and Validation
   The ETA grant accrual process for the fiscal year-end and quarter-end accruals takes a snapshot of general ledger
   data for all ETA grants at the end of the period and calculates, at the individual grant level, the probable costs
   incurred based on the amount of drawdowns recorded at the end of the period. An accuracy analysis is performed
   on an annual basis to compare the actual costs reported by the grantees to the previous year-end’s accrual. During
   our FY 2006 audit work, we identified segregation of duties weaknesses related to the ETA grant accrual and
   validation process, and we determined that procedures for the ETA grant accrual and validation process were not
   documented.

   Per the U.S. Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
   Government, “Key duties and responsibilities need to be divided or segregated among different people to reduce
   the risk of error or fraud. This should include separating the responsibilities for authorizing transactions,
   processing and recording them, reviewing the transactions, and handling any related assets. No one individual
   should control all key aspects of a transaction or event.” Additionally, “The documentation should appear in
   management directives, administrative policies, or operating manuals and may be in paper or electronic form. All
   documentation and records should be properly managed and maintained.”




                                                                  FY 2006 Performance and Accountability Report    161
Financial Section


      Without a proper management review of the quarterly grant accrual and annual accuracy analysis, the risk
      increases that the grant accrual could be misstated in the consolidated financial statements. Additionally, without
      another employee trained to calculate the quarterly grant accrual using the current accrual methodology, a risk
      exists that the accrual would not be prepared timely and/or accurately in the event that the Financial Systems
      Specialist is absent.

      We recommend that management designate and train additional individuals in the grant accrual and validation
      process to correct this weakness, and that management formally document the grant accrual and validation
      procedures.

      Management agrees that backup procedures and personnel should be in place for calculating the quarterly grant
      accrual and for performing the annual accuracy analysis. The financial systems specialist now performs the
      management review of the accruals. Additional accounting office personnel will be trained to perform the
      accuracy analysis during FY 2007.

      Controls over Compliance with the Single Audit Act Amendments of 1996
      DOL has no monitoring procedures in place to ensure that audits of its grantees are completed and reports are
      received in a timely manner for each grantee that meets the audit threshold in Office of Management and Budget
      (OMB) Circular No. A-133, Audits of States, Local Governments, and Non-Profit Organizations. Therefore,
      DOL cannot be certain that all required audits have been performed in a timely manner.

      In addition, for FY 2006 compliance testing purposes, we selected a sample of DOL grantees that expended
      $500,000 or more of DOL funding through June 30, 2005. As of September 30, 2006, the latest available OMB
      Circular No. A-133 audit reports for 5 of the 32 grantees selected were not obtained by DOL for review to
      determine if any issues related to DOL grants had been reported. According to the Federal Single Audit
      Clearinghouse website, these 5 audit reports had been completed between the dates of May 7, 2002 and March 5,
      2006 and were available on the website.

      According to Section 7504 of the Single Audit Act Amendments of 1996, “Each Federal agency shall, in
      accordance with guidance issued by the Director under section 7505, with regard to Federal awards provided by
      the agency…monitor non-Federal entity use of Federal awards.” According OMB Circular No. A-133,
      non-Federal entities that expend $500,000 or more in a year in Federal awards shall have a single or program-
      specific audit conducted for that year. In addition, OMB Circular No. A-133, Subpart D, section 400(c) requires
      the Federal awarding agency to “perform the following for the Federal awards it makes: “Ensure that audits are
      completed and reports are received in a timely manner and in accordance with the requirements of this
      part…Issue a management decision on audit findings within six months after receipt of the audit report and
      ensure that the recipient takes appropriate and timely corrective action.”

      DLMS 8 – Audits and Investigations, dated July 7, 2004, paragraph 503 states, “DOL Program Official(s) shall
      promptly evaluate OIG report findings and recommendations and determine appropriate action…The Office of
      Inspector General will directly receive all Single Audit Act reports required to be submitted to DOL.”

      If no procedures are in place to ensure all audit reports that are required to be completed are received by DOL,
      DOL cannot determine if an audit report is missing or overdue. Additionally, DOL is not in full compliance with
      OMB Circular No. A-133, and questioned costs may have been reported for DOL programs of which DOL is not
      aware.

      We recommend that management develop and implement a tracking system to identify each grantee for which an
      OMB Circular No. A-133 audit is required and the date that the audit report is due. DOL should update DLMS to
      specifically identify which agencies are responsible for populating and maintaining this tracking system and for
      following-up with grantees when audit reports become overdue. In addition, we recommend that management
      implement a formal policy or process that defines which agency is responsible to monitor the Federal Single
      Audit Clearinghouse website for completed DOL grantee audit reports and retrieve them from the website for
      subsequent review.




162     United States Department of Labor
                                                                                           Independent Auditors’ Report
                                                                                                 Reportable Conditions
                                                                                                              Exhibit I


   Management believes that it is in compliance with OMB Circular No. A-133 as it relates to completion of
   required audits or follow-up on any questioned costs. The 5 reports noted by the auditor did not contain any
   findings related to DOL. However, management agrees that the procedures should be strengthened and will
   coordinate with appropriate agencies to develop and implement changes as recommended above, as appropriate.

5. Weaknesses Noted in the Change Control Process for a Benefits System
   A documented and standard process for requesting, reviewing, developing, testing, and approving changes to an
   ESA benefits system was not in place prior to February 2006. While change control procedures were established
   and documented in February 2006, the procedures were inconsistently followed during the months of February
   and March 2006. We noted various weaknesses in our judgmental sample of 30 changes in the two month period.
   Additionally, procedures have not been established for priority and emergency changes or changes to the system
   test environment.

   Management stated that the system was recently implemented, and management had not finalized change control
   procedures and was informally processing change control requests and approvals. Additionally, since procedures
   were implemented in February 2006, management has not had sufficient time or resources to ensure that the
   policy is being consistently followed. Furthermore, management believed that the procedures were sufficient to
   cover priority and emergency changes at the time the procedures were implemented.

   The DOL Computer Security Handbook, volume 6, System Security Planning for Major Applications”, section
   4.6, page 37, states that controls must be used to “monitor the installation of, and updates to, hardware, operating
   system software, and other software to ensure that the hardware and software function as expected, and that a
   historical record is maintained of application changes.” Additionally, the guidance states:

       These controls may also be used to ensure that only authorized software is installed on the system. Such
       controls may include a hardware and software configuration policy that grants managerial approval (re-
       authorize processing) to modifications and requires that changes be documented.

   The National Institute of Standards and Technology (NIST) Special Publication (SP) 800-64, Security
   Considerations in the Information System Development Life Cycle, section 2.3.4.1, page 23, states:

       Configuration management and configuration control procedures are critical to establishing an initial
       baseline of hardware, software, and firmware components for the information system and subsequently
       controlling and maintaining an accurate inventory of any changes to the system.

   Without a proper change control process regarding the flow of changes from development to production,
   unauthorized and potentially inaccurate program changes may be implemented into the production environment.
   Without formal acceptance of application changes, program management cannot be assured that the changes
   made meet their needs and are appropriate for the environment. In addition, as a result of these weaknesses, DOL
   is not in full compliance with FISMA.

   As a result of our findings, management researched the 30 changes and determined the changes were
   appropriately performed.

   We recommend that management develop and/or enforce procedures and controls to address identified change
   control weaknesses.

   Management agrees to include in its Plan of Action and Milestones (POA&M) security weaknesses identified in
   the report, together with corrective action to be taken and milestone dates. Management has also developed
   system-specific change control procedures and has updated documentation of approved, tested, and installed
   system changes. Additionally, management has begun enforcing and will continue to enforce requirements for
   documentation of approval, indication of release, and integration and IV & V testing.




                                                                  FY 2006 Performance and Accountability Report    163
Financial Section


6. Weaknesses Noted in Federal Employees Compensation Act (FECA) Accounting and Financial
   Reporting
      DOL did not implement or consistently follow its existing management review procedures related to year-end
      activity reconciliations and continuing FECA eligibility.

      FECA Reconciliations
      The OCFO does not adequately reconcile (1) the general ledger to the FECA subsidiary ledgers (FECA history
      databases), and ESA does not adequately reconcile (2) the FECA history databases to the charge-back report that
      is derived from the history databases and used to bill FECA customer agencies. We noted a reconciling
      difference of roughly $76 million in (1) above and a difference of $17 million in (2) above. Although DOL
      management has management review controls in place, they do not sufficiently follow-up on and resolve
      differences through an adequate reconciliation process.

      Per the GAO’s Standards for Internal Control in the Federal Government, “Control activities occur at all levels
      and functions of the entity. They include a wide range of diverse activities such as approvals, authorizations,
      verifications, reconciliations, performance reviews, maintenance of security, and the creation and maintenance of
      related records which provide evidence of execution of these activities as well as appropriate documentation.”

      We recommend that management develop and implement quarterly procedures to reconcile the FECA benefit
      program expenses to the general ledger and quarterly ESA procedures to adequately reconcile the FECA history
      databases to the charge-back reports.

      Management concurs and will develop and implement formal reconciliation procedures to ensure that the FECA
      benefit program expenses are reconciled to the general ledger and that the chargeback reports are reconciled to
      the payment histories.

      Management Review of Year-end Accrual
      DOL prepares a schedule, Liability for Current Federal Employees Compensation Act Benefits, as of September
      30, which is available to other Federal agencies before fiscal year end via the internet. This information is
      necessary for other Federal agencies to record a liability for fourth quarter benefit payments, which is owed to
      DOL. The DOL OCFO uses an estimation process to prepare this schedule.

      Management does not have procedures in place to review the estimate for the fourth quarter. The estimate for the
      FY 2006 fourth quarter DOL receivable based on the Liability for Current Federal Employees Compensation Act
      Benefits schedule differed from the actual DOL receivable by approximately $96 million. This variance primarily
      resulted from an extra payment cycle in the fourth quarter of FY 2006 for which the estimation model did not
      account. Had management performed a detailed review of the OCFO estimate, management may have identified
      that the extra payment cycle was not accounted for in the fourth quarter estimate and requested a correction prior
      to the posting of the estimate information on the internet.

      Per the GAO’s Standards for Internal Control in the Federal Government, “Key duties and responsibilities need
      to be divided or segregated among different people to reduce the risk of error or fraud. This should include
      separating the responsibilities for authorizing transactions, processing and recording them, reviewing the
      transactions, and handling any related assets. No one individual should control all key aspects of a transaction or
      event.”

      We recommend that management develop and implement procedures for management review of the OCFO
      estimates prior to posting of the estimates on the internet and refine the estimation methodology so that it will
      more accurately account for varying payment cycles.

      Management will develop and implement procedures to formally review the amounts to be posted and will
      review and refine the methodology as needed.




164     United States Department of Labor
                                                                                        Independent Auditors’ Report
                                                                                              Reportable Conditions
                                                                                                           Exhibit I


   Delinquent Forms CA-1032, Request for Information on Earnings, Dual Benefits, Dependents and Third
   Party Settlement Form
   DOL policy requires FECA claimants to annually certify their earnings information and dependent status on a
   Request for Information on Earnings, Dual Benefits, Dependents and Third Party Settlements Form (CA-1032).
   This information is used to determine if any changes are necessary to a claimant’s benefit amount.

   Our tests of operating effectiveness noted that Claims Examiners (CE) were not consistently following-up with
   claimants to ensure that a CA-1032 was received annually for each claimant, as applicable; however, payments
   continued to be made to non-responsive claimants. ESA management identified the use of the Periodic Eligibility
   Review (PER) screen capabilities in iFECS as a key control to ensure claimant case files are current. The iFECS
   PER screen tracks CA-1032 status and documents CA-1032 receipt and review. However, iFECS does not have
   automated reminders to identify outstanding CA-1032 receipts. For 4 of the 188 disbursements tested, we noted a
   completed CA-1032 was not returned by the claimant and the CE did not follow the FECA Procedure Manual in
   following up on the unreturned CA-1032. Without these completed forms, an increased opportunity exists for
   incorrect payments to be made to claimants in situations where they are either no longer eligible for
   compensation or are eligible for increased or reduced compensation, based on their earnings, marital status,
   and/or dependent status, and have not had their information updated in iFECS.

   We also noted that 2 of the 188 disbursements tested were made for inaccurate amounts because of inadequate
   CE reviews of received CA-1032s. The two claimants had provided sufficient information on the CA-1032,
   noting that they no longer had a spouse or dependents; however, the payments tested identified that they
   continued to be paid at the higher rate that would apply for a claimant with dependents and/or a spouse.

   System controls and reminders should be in place to monitor the status of CA-1032 requests. Once CEs begin to
   use the PER screen consistently, a report could be written that would provide a list of those claimants for which
   CA-1032s have not been received, which would facilitate more timely follow-up by the CEs and supervisory
   staff.

   We have noted that management has taken action on these issues. Specifically, management has made
   enhancements to the PER screen within iFECS and is updating its policies to make the appropriate use of the
   PER screen a mandatory requirement.

   We recommend that management utilize the PER screen within iFECS to track CA-1032 status and document
   their receipt and review using a system configuration or manual control and require supervisory review of CE
   receipt and review of CA-1032 forms.

   Management believes that with the successful implementation of the enhancements to the Periodic Eligibility
   Review (PER) screen within iFECS on March 31, 2006, in fulfillment of the response to a prior year finding, the
   issue was resolved. It is management’s position that use of the PER resolves the findings related to processing
   CA-1032s. A bulletin will be created to outline management’s policy on the use of the PER screen and the
   procedure manual will be updated as it still references claims examiners needing to complete a Form 674.

7. Lack of Segregation of Duties over Journal Entries
   All DOL agencies are able to enter journal entries into DOLAR$ via transaction codes. Each transaction code
   consists of one or more journal entries. The respective agency staff member responsible for recording the
   particular item accesses DOLAR$ and enters the transaction code and the dollar amount of the item. DOLAR$
   does not require these entries to be recorded and approved by separate individuals before they are posted to the
   general ledger. Hence, transaction codes and corresponding amounts entered into DOLAR$ are posted without
   any system-controlled review and approval. We noted this condition through procedures performed at the
   Occupational Safety and Health Administration (OSHA), OASAM, and the OCFO; these agencies do not have
   manual compensating review controls to address the related risk.




                                                                 FY 2006 Performance and Accountability Report   165
Financial Section


      DOLAR$ was not designed to require journal entries to be electronically approved before amounts entered are
      posted to the general ledger, and management has not required Department-wide manual review controls to
      compensate for this condition. By allowing individuals the authority to prepare and approve their own
      transactions in DOLAR$, the risk increases that a material error would not be prevented or detected and
      corrected on a timely basis.

      Per the GAO’s Standards for Internal Control in the Federal Government, “Key duties and responsibilities need
      to be divided or segregated among different people to reduce the risk of error or fraud. This should include
      separating the responsibilities for authorizing transactions, processing and recording them, reviewing the
      transactions, and handling any related assets. No one individual should control all key aspects of a transaction or
      event.”

      We recommend that management ensures the current general ledger system’s configuration is modified so that
      journal entries (via transaction codes) entered into the general ledger are required to be approved electronically
      by an individual other than the preparer before they are posted. This feature should also be incorporated into the
      design of the planned replacement general ledger system. The agencies that do not currently have manual
      compensating review controls should implement such controls to address this risk until the system controls have
      been implemented.

      Management concurs that DOLAR$ does not have a system-controlled approval process and supports the
      concept of building in automated internal controls into the system that will replace DOLAR$ as long as these
      controls are reasonable. However, management does not believe that it is feasible or cost effective to retrofit the
      current system with these controls. Management does not agree with the finding that there are no compensating
      review controls for the current lack of automated journal voucher review. Overall, the Department believes it has
      in place adequate compensating controls and will ensure that these procedures are properly documented and
      improved in FY 2007.

8. Weakness Noted over Payroll Accounting
      During FY 2006, the U.S. Department of Agriculture’s (USDA) Office of Chief Financial Officer
      (OCFO)/National Finance Center (NFC) processed DOL’s payroll. The Fiscal Year 2006 – Office of the Chief
      Financial Officer/National Finance Center General Control Review dated September 21, 2006 and issued by the
      USDA’s Office of Inspector General (Report No. 11401-24-FM) reported a qualified opinion regarding the
      effectiveness of NFC’s internal controls for the period October 1, 2005 through June 30, 2006. During FY 2006,
      DOL did not have policies and procedures in place to reconcile the payroll information it submitted to the NFC
      to that received and processed by the NFC.

      For each FY 2006 pay period, DOL submitted to the NFC payroll information that included all DOL employees
      for the period, along with their hours worked, leave used, and other payroll related information for the period.
      The NFC processed the payroll for DOL each period and made available for download a Detail Pay and Deduct
      Register report for each DOL Human Resources office. We noted that DOL did not utilize these reports to
      perform reviews or reconciliations of data processed by the NFC, and no other controls were in place during the
      year to ensure that what was submitted to NFC via Time and Attendance records reconciled to what was shown
      as paid in the Detail Pay and Deduct Register. The lack of reconciliation controls around the NFC outputs,
      compounded by the control weaknesses identified at the NFC, increased the risk that payroll-related line items in
      the FY 2006 financial statements could be misstated because of errors in payroll processing by the NFC.

      Additionally, we noted that the Department of Labor Manual Series (DLMS) 6, Financial Management, Chapter
      1000, Payroll Accounting, has not been updated since October 1981. However, payroll policies and procedures
      have changed since 1981, most notably with the change to NFC as DOL’s payroll services provider.

      Federal agencies that use external service providers, such as the NFC, should have controls in place to ensure the
      accuracy of processing outputs. As stated by the USDA OIG in its FY 2006 Report No. 11401-24-FM, “The
      accuracy and reliability of data processed by OCFO/NFC and the resultant reports rests with the customer agency
      and any compensating controls implemented by the agencies.”




166     United States Department of Labor
                                                                                        Independent Auditors’ Report
                                                                                              Reportable Conditions
                                                                                                           Exhibit I


   OMB Circular No. 123, Management’s Responsibility for Internal Control, states, “Application control should be
   designed to ensure that transactions are properly authorized and processed accurately and that the data is valid
   and complete. Controls should be established at an application’s interfaces to verify inputs and outputs, such as
   edit checks.” Additionally, per the GAO’s Standards for Internal Control in the Federal Government, “Internal
   control should generally be designed to assure that ongoing monitoring occurs in the course of normal
   operations. It is performed continually and is ingrained in the agency’s operations. It includes regular
   management and supervisory activities, comparisons, reconciliations, and other actions people take in performing
   their duties.” GAO’s Standards for Internal Control in the Federal Government also state, “The documentation
   should appear in management directives, administrative policies, or operating manuals and may be in paper or
   electronic form. All documentation and records should be properly managed and maintained.”

   We recommend that management develop and implement policies and procedures to reconcile payroll
   information provided to the NFC to the payroll information processed by the NFC each pay period. These
   reconciliations should be documented, reviewed and approved by an appropriate supervisor, and maintained. In
   addition, management should update DLMS to reflect current payroll-related policies and procedures, and
   develop and implement a monitoring plan to periodically evaluate and update procedures in the DLMS to ensure
   the information documented is still appropriate.

   Management believes that it currently has available and uses numerous reports for DOL review and analysis of
   payroll information, has in place a time and attendance reconciliation that validates what is transmitted to NFC
   and what is processed, and reviews and reconciles data between DOL Human Resources (HR) and HR data in the
   National Finance Center’s data base. Management believes that the PeoplePower and NFC edits ensure the
   accuracy of the data being processed. DLMS 6 – Chapter 1000 Payroll and Accounting, was updated and
   circulated to DOL agencies for review in July 2006 and will be issued shortly.

9. Weakness Noted over Budgetary Accounting

   During FY 2006, the OCFO did not complete timely reconciliations related to the Apportionment and
   Reapportionment Schedules (SF-132) and the Report on Budget Execution and Budgetary Resources (SF-133).
   During our FY 2006 audit work, we requested reconciliations as of June 30, 2006 of (a) the SF-132 to the
   SF-133, and (b) the SF-133 to the third quarter Statement of Budgetary Resources. However, these
   reconciliations were not completed and provided to us until late September 2006. In addition, these
   reconciliations identified several necessary corrections to amounts posted in the general ledger, and various
   differences remained unresolved. During FY 2006, the OCFO did not have adequate resources and did not
   adequately enforce policies to ensure the reconciliations were completed and any identified reconciling items
   resolved in a timely manner. The lack of timely and complete reconciliations increased the risk that material
   differences in external reports and in the general ledger may not have been detected and corrected in a timely
   manner during the year.

   Additionally, we noted that much of the information referenced in DLMS for the Budget Execution process has
   not been updated since March 2004. OMB Circular No. A-11, Preparation, Submission and Execution of the
   Budget, has been revised since that time.

   Per the GAO’s Standards for Internal Control in the Federal Government, “Control activities occur at all levels
   and functions of the entity. They include a wide range of diverse activities such as approvals, authorizations,
   verifications, reconciliations, performance reviews, maintenance of security, and the creation and maintenance of
   related records which provide evidence of execution of these activities as well as appropriate documentation.”
   Additionally, “The documentation should appear in management directives, administrative policies, or operating
   manuals and may be in paper or electronic form. All documentation and records should be properly managed and
   maintained.”




                                                                 FY 2006 Performance and Accountability Report   167
Financial Section


      According to OMB’s Circular No. A-136 (July 2006), section II.4.6.11, “… information on the SBR should be
      consistent with the budget execution information reported on the Report on Budget Execution and Budgetary
      Resources (SF 133) and with information reported in the Budget of the United States Government to ensure the
      integrity of the numbers presented…Consistency between budgetary information presented in the financial
      statements and the Budget of the United States Government is critical to ensure the integrity of the numbers
      presented. The FACTS II helps to ensure the consistency of data. The FACTS II data submitted by agencies are
      USSGL-based trial balances, which are used to populate the SF 133 and the actual column of the Program and
      Financing Schedule of the Budget.” In addition, section II.4.62 states “The resources reported on this statement
      shall agree with, and be reconciled to, the total budgetary resources reported for the aggregate of all budget
      accounts on the SF 133…The status of budgetary resources reported on this statement shall agree with, and be
      reconciled to, the total status reported for the aggregate of all budget accounts on the SF 133…The outlays shall
      also agree with, and be reconciled to, the aggregate of outlays reported on the SF 133 for the aggregate of all
      budget accounts.”

      We recommend that management ensure that current policies and procedures over SF-132 and SF-133
      reconciliations are enhanced to require (a) quarterly reconciliations be prepared and documented, (b) the
      completion of documented supervisory reviews over the reconciliations, and (c) the completion of these
      procedures by a certain date (e.g., 15 days after each quarter-end). In addition, management should update
      DLMS to reflect current budget-related policies, procedures, and external requirements, and develop and
      implement a monitoring plan to periodically evaluate and update procedures in the DLMS to ensure the
      information documented is still appropriate.

      Management believes that due to DOL’s submission process of data to Treasury, any deficiencies would be
      identified before the trial balance data is submitted through the edit checks of Treasury. Additionally, the OCFO
      initiated reconciliation of the SF-132 and SF-133 reports on a quarterly basis in FY 2006. Management is
      working to enhance its current policies and procedures to require that the quarterly reconciliation be completed
      15 days after each quarter and will require that the reconciliation be fully documented, and will require it to be
      formally reviewed and approved by management.

10. Weaknesses Noted over Custodial Activities
      Four DOL agencies are responsible for the assessment and collection of fines and penalties – ESA, OSHA, the
      Employee Benefits Security Administration (EBSA), and the Mine Safety and Health Administration (MSHA).
      During our FY 2006 testing related to the assessment and collection of fines and penalties, we noted the
      following conditions:

           •   Controls were not consistently functioning effectively during FY 2006 to notify the employers of debt
               delinquency timely (18 exceptions in 74 cases tested) or to send notification of outstanding debt to the
               U.S. Department of Treasury (Treasury) after 180 days (25 exceptions in 52 cases tested that were
               greater than 180 days outstanding), in accordance with the Debt Collection Improvement Act of 1996.
               These exceptions were noted at MSHA and OSHA.
           •   MSHA and ESA do not write-off debt greater than 2 years old in accordance with OMB Circular No. A-
               129, Managing Federal Credit Programs.
           •   MSHA does not reconcile its subsidiary ledger to the general ledger on a periodic basis. We requested
               reconciliations of collections between the subsidiary ledger and the general ledger as of June 30, August
               31, and September 30, 2006, and received none of them timely. The September 30 collections
               reconciliation, received on November 3, 2006, contained a $650,930 unexplained variance (2.7% of
               MSHA collections recorded in the general ledger as of September 30, 2006).
           •   Since November 2005, one day of interest was omitted from MSHA’s interest calculation each month.




1   Also cited in the August 2005 version of OMB Circular No. A-136, section 6.1.
2   Also cited in the August 2005 version of OMB Circular No. A-136, sections 6.5 through 6.7.

168      United States Department of Labor
                                                                                         Independent Auditors’ Report
                                                                                               Reportable Conditions
                                                                                                            Exhibit I


    •   OSHA only records interest receivable when debt letters are sent to employers and when debt is sent to
        Treasury, and does not ensure that its quarter-end interest receivable balances are appropriately accrued
        between the time of the last debt letter and the time the debt is sent to Treasury.
    •   OSHA collections are not properly cut-off at year-end. $819,126 of FY 2005 collections were posted to
        DOLAR$ and the SCA in FY 2006, and $1,236,416 of FY 2006 collections were posted to DOLAR$
        and the SCA in FY 2007.

DOL management considered the identified differences to be immaterial to the FY 2006 consolidated financial
statements, and as such, these differences were included in the Summary of Unadjusted Audit Differences
attached to management’s FY 2006 representation letter.

We recommend that management develop and implement policies and procedures, or enhance and enforce
existing policies and procedures and related systems related to the timely notification to employers of debt
delinquency, the timely notification to Treasury of outstanding debt, write-off of debt greater than 2 years old in
accordance with OMB Circular No. A-129, Managing Federal Credit Programs reconciliation of the MSHA
subsidiary ledger to the general ledger on a quarterly basis, accrual of interest receivable on a quarterly basis, and
recording of collections received near year-end in the general ledger in the proper fiscal year. In addition,
management should design, test, and implement changes to MSHA’s subsidiary ledger to correct errors in the
calculation of interest and ensure that controls are in place to detect such system errors in the future.

In FY 2006, DOL updated its procedures for debt management (DLMS 6, Chapter 900); the Chapter is currently
in the Departmental clearance process. The revised guidance covers transfers of delinquent or defaulted debts to
the U.S. Department of the Treasury, Financial Management Service (FMS) for collection and procedures for the
write-off of debt. Management routinely monitors accounts receivable and reviews the agencies’ quarterly
reports on receivables due from the public to ensure compliance with OMB Circular No. A-129. Management
will develop and implement any additional policies and procedures for the management and collection of debts
and write-offs to ensure compliance with FMS and the OMB Circular No. A-129 requirements, including interest
accruals, reconciliations, and cut-offs.




                                                                FY 2006 Performance and Accountability Report     169
Financial Section


1. Federal Information Security Management Act (Electronic Government Act of 2002)
      The U.S. Department of Labor (DOL) is required to comply with the Federal Information Security Management
      Act (FISMA), which was enacted as part of the Electronic Government Act of 2002. FISMA requires the head of
      each agency to be responsible for (1) providing information security protections commensurate with the risk and
      magnitude of the harm resulting from unauthorized access, use, disclosure, disruption, modification, or
      destruction of (a) information collected or maintained by or on behalf of the agency; and (b) information systems
      used or operated by an agency or by a contractor of an agency or other organization on behalf of an agency; (2)
      complying with the requirements of this subchapter and related policies, procedures, standards, and guidelines,
      including information security standards promulgated under section 11331 of title 40. This particular section
      requires that Federal agencies provide minimum information security requirements as defined by the National
      Institute of Standards and Technology. We noted instances of non-compliance with FISMA that have been
      reported in Exhibit I as Reportable Condition Nos. 1, 2 and 5.

      We recommend that DOL follow the recommendations provided in Reportable Condition Nos. 1, 2 and 5 in
      Exhibit I, and fully implement the requirements of FISMA in fiscal year (FY) 2007.

2. Single Audit Act Amendments of 1996
      As a grant-making entity, DOL is required to comply with certain provisions of the Single Audit Act Amendments
      of 1996 and the corresponding Office of Management and Budget (OMB) Circular No. A-133, Audits of States,
      Local Governments, and Non-Profit Organizations. According to Section 7504 of the Single Audit Act
      Amendments of 1996, “Each Federal agency shall, in accordance with guidance issued by the Director under
      section 7505, with regard to Federal awards provided by the agency…monitor non-Federal entity use of Federal
      awards.” According to Section 400(c) of OMB Circular No. A-133, “The Federal awarding agency shall perform
      the following for the Federal awards it makes…Ensure that audits are completed and reports are received in a
      timely manner and in accordance with the requirements of this part…Issue a management decision on audit
      findings within six months after receipt of the audit report and ensure that the recipient takes appropriate and
      timely corrective action.”

      As discussed in Reportable Condition No. 4 in Exhibit I, DOL lacks monitoring procedures to ensure that audits
      of its grantees are completed and reports are received in a timely manner for each grantee that meets the audit
      threshold in OMB Circular No. A-133. Therefore, DOL cannot be certain that all required audits have been
      performed in a timely manner.

      DOL has established policies and procedures requiring the Office of Inspector General (OIG) to receive OMB
      Circular No. A-133 audit reports once they are issued, review these reports for findings relevant to DOL grant
      programs, and distribute any such findings to the applicable DOL agency for response and resolution. However,
      we noted instances in which the latest available OMB Circular No. A-133 audit reports were not obtained for
      review as of September 30, 2006 although they were available on the Federal Single Audit Clearinghouse
      website.

      We recommend that DOL follow the recommendations provided in Reportable Condition No. 4 in Exhibit I in
      FY 2007.

3. Debt Collection Improvement Act of 1996
      The Debt Collection Improvement Act of 1996 (DCIA) is intended to significantly enhance the Federal
      Government’s ability to service and collect debts. Under the DCIA, the U.S. Department of Treasury (Treasury)
      assumes a significant role for improving government-wide receivables management. According to the DCIA, an
      agency responsible for collecting debts from the public must “ensure that the public is fully informed of the
      Federal Government's debt collection policies and that debtors are cognizant of their financial obligations to
      repay amounts owed to the Federal Government.” Also, according to the DCIA, “any Federal agency that is
      owed by a person a past due, legally enforceable nontax debt that is over 180 days delinquent, including nontax
      debt administered by a third party acting as an agent for the Federal Government, shall notify the Secretary of the




170     United States Department of Labor
                                                                                         Independent Auditors’ Report
                                                                                                 Compliance Matters
                                                                                                           Exhibit II


   Treasury of all such nontax debts for purposes of administrative offset.” Our tests of compliance disclosed
   instances where DOL was not in compliance with these provisions of the DCIA. In addition, all DOL agencies do
   not write-off debt greater than two years old in accordance with OMB Circular No. A-129, Managing Federal
   Credit Programs. See Exhibit I, Reportable Condition No. 10 for further information.

   We recommend that DOL follow the recommendations provided in Reportable Condition No. 10 in Exhibit I,
   and develop policies and procedures to ensure full compliance with the DCIA in FY 2007.

4. Federal Financial Management Improvement Act of 1996
   Under section 803a of FFMIA, DOL’s financial management systems are required to substantially comply with
   (1) Federal financial management systems requirements, (2) applicable Federal accounting standards, and (3) the
   United States Government Standard General Ledger at the transaction level. The Department represented that in
   accordance with the provisions and requirements of FFMIA, the Secretary of Labor determined that the
   Department of Labor’s financial management systems are in substantial compliance with FFMIA.

   As a result of FY 2006 testing, we concluded that DOL’s financial management systems did not substantially
   comply with Federal financial management systems requirements.

      •   In the FY 2006 FISMA report, the DOL OIG identified a significant deficiency related to a system
          considered a mixed system under OMB guidelines as it supports financial and non-financial systems
          within DOL, including the Department of Labor Accounting and Reporting System (DOLAR$), DOL’s
          general ledger system. See OIG Report No. 23-06-015-07-001.
      •   Several “high” risk change control and segregation of duties weaknesses related to computer security
          were identified at the Employment and Training Administration (ETA) and the Employment Standards
          Administration (ESA) as part of FY 2006 audit work. These weaknesses were identified on systems
          associated with certain DOL benefits and grants programs. See Exhibit I Reportable Condition No. 1 and
          5 for further information.
      •   Numerous “high” and “medium” risk information technology (IT) general and application control
          weaknesses related to computer security were identified as part of the IT audit work in FY 2006. These
          weaknesses impact the IT environments and systems in several large DOL agencies, including the Office
          of the Chief Financial Officer (OCFO), ETA, ESA, and the Office of the Assistant Secretary for
          Administration and Management (OASAM). Many of these weaknesses were initially identified in
          previous years’ audits, and DOL has not taken sufficient corrective action to address them. In summary,
          DOL was not effective (less than 30%) in closing such prior year IT recommendations. As a result of the
          number of repeat IT weaknesses still present in the DOL financial control environment, added pressure
          exists on the mitigating manual controls to be operating effectively at all times. See Exhibit I Reportable
          Conditions Nos. 1 and 2 for further information.
      •   DOLAR$ does not require journal entries (via transaction codes) to be entered and approved by separate
          individuals before they are posted to the general ledger. Hence, transaction codes and corresponding
          amounts entered into DOLAR$ are posted without any system-controlled approval. See Exhibit I
          Reportable Condition No. 7 for further information.
      •   Certain procedures in the Department of Labor Manual Series (DLMS) are outdated or should be more
          comprehensive. See Exhibit I Reportable Condition Nos. 8 and 9 for examples of this condition.

   We recommend that DOL follow the recommendations provided in Reportable Condition Nos. 1, 2, 5, 8 and 9 in
   Exhibit I, and improve its processes to ensure compliance with the Federal financial management systems
   requirements of FFMIA in FY 2007.




                                                                              United States Department of Labor   171
